<html>
<title> - STEM EDUCATION IN ACTION: LOCAL SCHOOLS, NONPROFITS, AND BUSINESSES DOING THEIR PART TO SECURE AMERICA'S FUTURE</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
                       STEM EDUCATION IN ACTION:
                     LOCAL SCHOOLS, NONPROFITS, AND
                      BUSINESSES DOING THEIR PART
                       TO SECURE AMERICA'S FUTURE

=======================================================================



                                HEARING

                               BEFORE THE

             SUBCOMMITTEE ON RESEARCH AND SCIENCE EDUCATION

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                         MONDAY, APRIL 30, 2012

                               __________

                           Serial No. 112-81

                               __________

 Printed for the use of the Committee on Science, Space, and Technology


       Available via the World Wide Web: http://science.house.gov




                  U.S. GOVERNMENT PRINTING OFFICE
78-481                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                    HON. RALPH M. HALL, Texas, Chair
F. JAMES SENSENBRENNER, JR.,         EDDIE BERNICE JOHNSON, Texas
    Wisconsin                        JERRY F. COSTELLO, Illinois
LAMAR S. SMITH, Texas                LYNN C. WOOLSEY, California
DANA ROHRABACHER, California         ZOE LOFGREN, California
ROSCOE G. BARTLETT, Maryland         BRAD MILLER, North Carolina
FRANK D. LUCAS, Oklahoma             DANIEL LIPINSKI, Illinois
JUDY BIGGERT, Illinois               DONNA F. EDWARDS, Maryland
W. TODD AKIN, Missouri               BEN R. LUJAN, New Mexico
RANDY NEUGEBAUER, Texas              PAUL D. TONKO, New York
MICHAEL T. McCAUL, Texas             JERRY McNERNEY, California
PAUL C. BROUN, Georgia               TERRI A. SEWELL, Alabama
SANDY ADAMS, Florida                 FREDERICA S. WILSON, Florida
BENJAMIN QUAYLE, Arizona             HANSEN CLARKE, Michigan
CHARLES J. ``CHUCK'' FLEISCHMANN,    SUZANNE BONAMICI, Oregon
    Tennessee                        VACANCY
E. SCOTT RIGELL, Virginia            VACANCY
STEVEN M. PALAZZO, Mississippi       VACANCY
MO BROOKS, Alabama
ANDY HARRIS, Maryland
RANDY HULTGREN, Illinois
CHIP CRAVAACK, Minnesota
LARRY BUCSHON, Indiana
DAN BENISHEK, Michigan
VACANCY
                                 ------                                

             Subcommittee on Research and Science Education

                     HON. MO BROOKS, Alabama, Chair
ROSCOE G. BARTLETT, Maryland         DANIEL LIPINSKI, Illinois
BENJAMIN QUAYLE, Arizona             HANSEN CLARKE, Michigan
STEVEN M. PALAZZO, Mississippi       PAUL D. TONKO, New York
ANDY HARRIS, Maryland                JOHN P. SARBANES, Maryland
RANDY HULTGREN, Illinois             TERRI A. SEWELL, Alabama
LARRY BUCSHON, Indiana               SUZANNE BONAMICI, Oregon
DAN BENISHEK, Michigan               VACANCY
RALPH M. HALL, Texas                 EDDIE BERNICE JOHNSON, Texas
                            C O N T E N T S

                         Monday, April 30, 2012

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Mo Brooks, Chairman, Subcommittee on 
  Research and Science Education, Committee on Science, Space, 
  and Technology, U.S. House of Representatives..................     8
    Written Statement............................................    10

Statement by Representative Daniel Lipinski, Ranking Minority 
  Member, Subcommittee on Research and Science Education, 
  Committee on Science, Space, and Technology, U.S. House of 
  Representatives................................................    11
    Written Statement............................................    13

                               Witnesses:

Dr. Camille H. Wright, Director of Secondary Education, Madison 
  City Schools
    Oral Statement...............................................    15
    Written Statement............................................    18

Dr. Robert A. Altenkirch, President, University of Alabama-
  Huntsville
    Oral Statement...............................................    21
    Written Statement............................................    23

Dr. Marilyn C. Beck, President, Calhoun Community College
    Oral Statement...............................................    31
    Written Statement............................................    33

Dr. Neil Lamb, Director of Educational Outreach, Hudsonalpha 
  Institute
    Oral Statement...............................................    43
    Written Statement............................................    45

Mr. Andrew Partynski, Chief Technology Officer, Science 
  Applications International Corporation
    Oral Statement...............................................    54
    Written Statement............................................    57

Discussion                                                           67

              Appendix: Answers to Post-Hearing Questions

Dr. Camille H. Wright, Director of Secondary Education, Madison 
  City Schools...................................................    82

Dr. Robert A. Altenkirch, President, University of Alabama-
  Huntsville.....................................................    85

Dr. Marilyn C. Beck, President, Calhoun Community College........    86

Dr. Neil Lamb, Director of Educational Outreach, Hudsonalpha 
  Institute......................................................    87

Mr. Andrew Partynski, Chief Technology Officer, Science 
  Applications International Corporation.........................    89


                       STEM EDUCATION IN ACTION:



                    LOCAL SCHOOLS, NON-PROFITS, AND



                      BUSINESSES DOING THEIR PART



                       TO SECURE AMERICA'S FUTURE

                              ----------                              


                         MONDAY, APRIL 30, 2012

                  House of Representatives,
    Subcommittee on Research and Science Education,
               Committee on Science, Space, and Technology,
                                                    Washington, DC.

    The Subcommittee met, pursuant to call, at 10:00 a.m., in 
Bob Jones High School, 650 Hughes Road, Madison, Alabama, Hon. 
Mo Brooks [chairman of the Subcommittee] presiding.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


[GRAPHIC] [TIFF OMITTED] 78481.002

[GRAPHIC] [TIFF OMITTED] 78481.003

[GRAPHIC] [TIFF OMITTED] 78481.004

[GRAPHIC] [TIFF OMITTED] 78481.005

    Chairman Brooks. The purpose of today's hearing is to 
highlight local science, technology, engineering and 
mathematics, or STEM, education programs and partnerships, and 
to examine the impact on the next generation of science, 
technology, engineering and mathematics professionals, local 
jobs, and the United States economy.
    In front of you are pamphlets containing the written 
testimony, biographies, and Truth in Testimony disclosures for 
today's witnesses.
    At this point, the Chair recognizes himself for an opening 
statement.
    I would like to welcome everyone this morning to the 
Subcommittee on Research and Science Education field hearing, 
``STEM Education in Action: Local Schools, Non-Profits and 
Businesses Doing Their Part to Secure America's Future.''
    It is a privilege to be with you to highlight and discuss 
local STEM education programs and partnerships and to examine 
their impact on the next generation of STEM professionals, 
local jobs, and the United States economy.
    It is also my pleasure to welcome my colleague on the 
Committee on Science, Space, and Technology and Ranking Member 
of the Subcommittee on Research and Science Education, Democrat 
Congressman Dan Lipinski, of the great State of Illinois. I 
have enjoyed working with him the past 15 months and am 
grateful for his willingness to travel to be here with us 
today.
    I also want to thank Bob Jones High School and the Madison 
City Schools for hosting us this morning and providing this 
wonderful facility, as well as each of our witnesses for taking 
time out of their busy schedules to testify before us on issues 
of importance to our community and to America.
    I remember hearing the loud roar and ground shaking from 
Saturn V rocket testing on Redstone Arsenal in the 1960s. Many 
of you have probably attended space camp. These and other 
science-based events have shaped the fabric of this community 
and America. I have had the privilege of serving Alabama's 
Fifth Congressional District for the past 15 months and am 
proud of the science and technology achievements that Alabama 
has provided to American exceptionalism.
    NASA and the Marshall Space Flight Center have led American 
exceptionalism in space. We were instrumental in putting 
Americans into space and onto the moon. We were instrumental in 
the development of the space shuttle, a three-decade workhorse 
unmatched by any nation on Earth. Redstone Arsenal's numerous 
commands have played a key role in developing the gee-whiz-bang 
weapons that helped make America's warfighters' military 
successful with minimal loss of American lives.
    Tennessee Valley businesses and top-of-the-line schools and 
research institutions give our citizens high-tech education and 
employment opportunities as good as any offered in America.
    As of May 2010, there were over 202,000 occupations in the 
metro Huntsville, Alabama, community, and the median annual 
wage was $48,000. Eighteen percent, or 35,500 of those 
occupations, were in STEM fields. The median wage for those 
jobs was $86,000, nearly twice the average of occupations 
overall.
    Further by way of background, Federal STEM education 
funding by the United States is $2.9 billion. That $2.9 billion 
comes from entities such as the Departments of Agriculture, 
Commerce, Defense, Homeland Security, Education, Energy, 
Environmental Protection Agency, Health and Human Services, 
Interior, NASA; in addition, the Nuclear Regulatory Commission, 
the National Science Foundation, and the Department of 
Transportation.
    Given our background in the STEM fields, North Alabama is 
an ideal place to promote science, technology, engineering and 
mathematics education, and it does not hurt that our district 
can serve as a model for the rest of America in this regard. As 
you may know, our Subcommittee has jurisdiction of essentially 
all non-defense and non-medical research and development 
activities of the Nation. This includes oversight of agencies 
like NASA; the Department of Energy's Office of Science; the 
National Oceanic and Atmospheric Administration, which includes 
the National Weather Service; portions of the Department of 
Homeland Security; the National Institute of Standards and 
Technology; and the National Science Foundation, which provides 
approximately 40 percent of all non-medical basic research at 
American colleges and universities, including support for STEM 
education.
    The research these agencies spans is important to our 
Nation's economic success, but at the same time it is also 
critical to note that America faces unsustainable budget 
deficits that constitute our greatest economic and national 
security threat. By way of emphasis, Admiral Mike Mullen, 
Chairman of the Joint Chiefs of Staff, testified before the 
House Armed Services Committee last year that our Nation's 
biggest national security threat is our deficit and accumulated 
debt.
    Mr. Lipinski and I may disagree on certain policy issues, 
but I am confident that he would agree with me that we must do 
more to alleviate our deficit and accumulated debt. Likewise, I 
am sure he would agree with me that an essential element of 
future United States economic prosperity is a competent, 
skilled workforce, one that we cannot achieve without strong 
STEM education efforts, particularly on the local level.
    Today we will take a closer look at a few of the STEM 
education partnerships and initiatives being executed by 
Tennessee Valley schools, businesses, and non-profit 
organizations. Also noteworthy are the efforts of other local 
schools and organizations not testifying before us today.
    For example, this Subcommittee had the privilege of hosting 
Christine Stratton, a teacher at Grissom High School in the 
District of Columbia, last year to discuss Grissom's robust 
cybersecurity curriculum. In addition, Aerojet, through the 
GenCorp Foundation, is strongly committed to STEM education in 
the Huntsville community, and as most of the Nation knows, the 
Space and Rocket Center with its space camp has been a sterling 
example of what museums and other non-profits can do to help 
the STEM education.
    Our commitment to STEM education is exemplified by 
contributions to STEM programs in the community by the 
University of Alabama-Huntsville's Propulsion Research Center 
and related scholarships. I could cite numerous other examples, 
but it is clear that STEM education is a top priority for many 
in our area. I am proud of what this community has been able to 
accomplish and look forward to learning more about these 
remarkable initiatives.
    [The prepared statement of Chairman Brooks follows.]

         Prepared Statement of Subcommittee Chairman Mo Brooks

    Good morning. I want to welcome everyone this morning to the 
Subcommittee on Research and Science Education field hearing, ``STEM 
Education in Action: Local Schools, Non-Profits, and Businesses Doing 
Their Part to Secure America's Future.'' It is a privilege to be with 
you to highlight and discuss local STEM education programs and 
partnerships and to examine their impact on the next generation of STEM 
profesisonals, local jobs, and the U.S. economy.
    It is also my pleasure to welcome my colleague on the Committee on 
Science, Space, and Technology and Ranking Member of the Subcommittee 
on Research and Science Education, Congressman Dan Lipinski of 
Illinois. I have enjoyed working with him the past 15 months and am 
grateful for his willingness to travel to be here with us today.
    I want to thank Bob Jones High School and Madison City Schools for 
hosting us this morning and for providing this wonderful facility, as 
well as each of our witnesses for taking time out of their busy 
schedules to testify before us on issues of importance to our community 
and to America.
    I remember hearing the loud roar and ground shaking from Saturn V 
rocket testing on Redstone Arsenal in the 1960s. Many here probably 
attended Space Camp.
    These and other science-based events have shaped the fabric of this 
community and America.
    I have had the privilege of serving Alabama's Fifth Congressional 
District for the past 15 months and am proud of the science and 
technology achievements North Alabama has provided to American 
exceptionalism.
    NASA and our Marshall Space Flight Center have led American 
exceptionalism in space. We were instrumental in putting Americans into 
space and onto the Moon. We were instrumental in the development of the 
Space Shuttle--a three-decade workhorse unmatched by any other Nation 
on Earth.
    Redstone Arsenal's numerous commands have played a key role in 
developing the gee-whiz-bang weapons that help America's warfighters 
achieve military success with minimal loss of American lives.
    Tennessee Valley businesses and top-of-the-line schools and 
research institutions give our citizens high-tech education and 
employment opportunities as good as any offered in America.
    As such, North Alabama is an ideal place to promote science, 
technology, engineering, and mathematics--or STEM--education, and it is 
my hope that our district can serve as a model for the rest of America 
in this regard.
    As you may know, our Subcommittee has jurisdiction of essentially 
all non-defense and non-medical research and development activities of 
the Nation. This includes oversight of agencies like NASA; the 
Deparment of Energy's Office of Science; the National Oceanic and 
Atmospheric Administration, which includes the National Weather 
Service; portions of the Department of Homeland Security; the National 
Institute of Standards and Technology; and the National Science 
Foundation, which provides approximately 40 percent of all non-medical 
basic research at American colleges and universities, including support 
for STEM education.
    The research these agencies fund is important to our Nation's 
economic success, but at the same time, it is also critical to note 
that America faces unsustainable budget deficits that constitute our 
greatest economic and national security threat. By way of emphasis, 
Admiral Mike Mullen, Chairman of the Joint Chiefs of Staff, testified 
before the House Armed Services Committee last year that our Nation's 
biggest national security threat is our deficit.
    Mr. Lipinski and I may disagree on certain policy issues, but I am 
confident he would agree with me that we must do more to alleviate our 
deficit. Likewise, I am sure he would agree with me that an essential 
element of future U.S. economic prosperity is a competent, skilled 
workforce--one that we cannot achieve without strong STEM education 
efforts, particularly on the local level.
    Today, we will take a closer look at a few of the STEM education 
partnerships and initiatives being executed by Tennessee Valley 
schools, businesses, and non-profit organizations.
    Also noteworthy are the efforts of other local schools and 
organizations not testifying before us today. For example, this 
Subcommittee had the privilege of hosting Christine Sutton, a teacher 
at Grissom High School in DC, last year to discuss Grissom's robust 
cybersecurity curriculum. In addition, Aerojet, through the GenCorp 
Foundation, is strongly committed to STEM education in the Huntsville 
community.
    Our commitment to STEM education is exemplified by contributions to 
STEM programs in the community by the University of Alabama-
Huntsville's Propulsion Research Center and related scholarships and 
the U.S. Space and Rocket Center's summer camp, as well as many other 
local initiatives supporting STEM programs for students ranging from 
elementary through high school.
    I could cite numerous other examples, but it is clear that STEM 
education is a top priority for many in our area. I am proud of what 
this community has been able to accomplish and look forward to learning 
more about these remarkable initiatives. Thank you all again for 
joining us today.

    Thank you all again for joining us today, and at this time 
the Chair recognizes Mr. Lipinski of the great State of 
Illinois for an opening statement.
    Mr. Lipinski. Thank you, Chairman Brooks.
    I thank the witnesses for being here today. I thank Bob 
Jones High School for hosting us and everyone who has come here 
to hear about this critical issue for our country.
    I am very happy to be down here. I came down on Saturday. I 
actually went to the--my wife came with me, went to Space and 
Rocket Center on Saturday. We enjoyed our visit there, going 
through the Wernher von Braun, the history of his biography, 
the history of the great things that he did for our nation. I 
have my ``What Would Wernher von Braun Do?'' bracelet that I 
have on here with me right now.
    I got to land a space shuttle at space camp, and I enjoyed 
that very much, and all of that is a very important part of 
STEM education.
    But I want to thank Chairman Brooks for holding this 
hearing. You would probably be surprised at how much we--yes, 
there are things that we disagree on policywise, but for a 
Chicago Democrat, you might be surprised how much I agree with 
many things with Chairman Brooks, although that might not be a 
good thing for me to say down here for him.
    Actually, I am not your typical Chicago Democrat. We will 
just say that. We will leave it at that.
    My background is in STEM education, I have two degrees in 
engineering. My wife has a degree in math. I have served as the 
Co-Chair of the House STEM Ed Caucus for the past six years. So 
I am very happy that Chairman Brooks has made it a priority to 
emphasize STEM education and what can we do for STEM ed in our 
country.
    It is alarming that so many American students perform 
poorly in science and math. On the most recent National 
Assessment of Educational Performance, only 21 percent of high 
school seniors performed at or above the proficient level in 
science. When compared internationally, our student performance 
is even more alarming. In the most recent Program for 
International Student Assessment administered to 15-year-olds, 
the U.S. ranked 17th in science and 25th in math out of 34 
countries surveyed.
    Poor performance in science and math not only limits the 
students' job opportunities, but taken together, the poor 
performance of so many of our students is also the first in a 
series of falling dominoes that are dulling our Nation's 
competitive edge in technology and innovation. The lack of a 
strong K-12 foundation in STEM disciplines is a major factor in 
the high attrition rates in STEM subjects at the post-secondary 
level as well.
    Fewer than 40 percent of students who state as college 
freshman that they want to major in a STEM discipline actually 
end up receiving a Bachelor's degree in their desired field. 
That is 3 out of 5 who do not follow through, do not make it 
all the way through college to get the Bachelor's degree. This, 
in turn, is creating a shortage in the supply of skilled 
workers, the demand for which will grow rapidly in the coming 
decades.
    At the same time, other countries are seeing an increase in 
the number of students receiving degrees in STEM fields and 
preparing for the high-tech jobs that will shape the global 
economy in the 21st Century.
    These two factors are placing the United States in a 
position from which we could very easily lose our historical 
advantage in innovation and technology, possibly within our 
lifetimes. I know there is no silver bullet that will solve 
this problem and that we need to attack the STEM education 
crisis from multiple angles using a number of strategies.
    That is why I am pleased that we have a panel of witnesses 
that represent significant stages of the STEM pipeline--high 
schools, community colleges, four-year universities, non-
profits, and industry.
    I already mentioned the importance of a quality K-12 
education in STEM. I also want to mention about how community 
colleges play a vital role in preparing students for highly 
technical jobs upon graduation. In addition, community colleges 
can provide a pathway for students in STEM fields in our 
Nation's world-class universities, such as the University of 
Alabama-Huntsville.
    One other area of STEM education, as I mentioned earlier, 
is informal STEM education, STEM ed that takes place outside of 
the classroom. This was always something very important to me 
growing up. We had some great museums in Chicago, especially 
the Museum of Science and Industry. That really helped to spur 
my interest and get me excited and want to pursue engineering. 
As I mentioned, space camp is certainly a place where this 
takes place and gets kids interested in pursuing a STEM field 
in science, technology, engineering, math.
    So right now, the strain is being placed on U.S. companies 
and non-profit research institutions that rely on students with 
STEM degrees, on getting students with STEM degrees. Our 
nation's deficiency in STEM education is making it increasingly 
difficult to fill vital positions.
    So I look forward to hearing from everyone on our panel 
about what you perceive to be the problems and the potential 
solutions from your unique vantage points. I think it is a 
great panel that has been put together here to really hit from 
all these different angles about what we can do about STEM 
education.
    As I said, I know there is no silver bullet, but that does 
not mean that we should not be doing all that we can in making 
sure something that I think is very important, having public-
private partnerships. We really need to get the private sector 
involved, but always education will be a very critical public 
priority and a priority for our government and for elected 
officials.
    So with that, I yield back.
    [The prepared statement of Ranking Member Daniel Lipinski 
follows.]

          Prepared Statement of Ranking Member Daniel Lipinski

    Thank you, Chairman Brooks, for holding this hearing, and I'd like 
to thank the witnesses as well for being here today. I'm delighted to 
be here in Madison to discuss an issue that is not only of great 
importance to our Nation and our ability to compete in the 21st century 
global economy, but it is also one that is of particular imterest to 
me. As a former engineer, I understand all too well how much better we 
need to do in STEM education, and I am glad that the Subcommittee 
continues to make improving the teaching and learning of STEM 
disciplines at all levels a top priority.
    It's alarming that so many American students perform poorly in 
science and math. In the most recent National Assessment of Educational 
Performance, only 21 percent of high school seniors performed at or 
above the ``proficient'' level in science. When compared 
internationally, our students' performance is equally alarming. In the 
most recent Program for International Student Assessment administered 
to 15-year-olds, the U.S. ranked 17th in science and 25th in math out 
of 34 surveyed countries.
    Poor performance such as this is the first in a series of falling 
dominoes that are dulling our competitive edge in innovation and 
technology internationally. The lack of a strong K-12 foundation in 
STEM disciplines is a major factor in the high attrition rates in STEM 
subjects at the postsecondary level as well. Fewer than 40 percent of 
students who state as college freshmen that they want to major in a 
STEM discipline actually end up receiving a bachelor's degree in their 
desired field. This, in turn, is creating a shortage in the supply of 
highly skilled workers, the demand for which will grow exponentially in 
the coming decades. At the same time, other countries are seeing an 
increase in the number of students receiving degrees in STEM fields and 
preparing for the high-tech jobs that will shape the global economy in 
the 21st century. These two factors are placing the U.S. in a position 
in which we could very easily lose our historical advantage in 
innovation and technology, possibly within our lifetimes.
    I know there is no silver bullet that will solve this problem and 
that we need to attack the STEM education crisis from multiple angles 
using a number of strategies. That is why I'm pleased to have a panel 
of witnesses that represents significant stages of the STEM pipeline: 
high schools, community colleges, four-year universities, non-profits, 
and industry. I already mentioned the importance of a quality K-12 
education in STEM. Community colleges also play a vital role in 
preparing students for highly technical jobs upon graduation. In 
addition, community colleges can provide a pathway to pursuing STEM 
fields at our Nation's world-class universities, such as the University 
of Alabama in Huntsville.
    Finally, I'm aware of the strain that is being placed upon U.S. 
companies and non-profit research institutions that rely on students 
with STEM degrees. Our Nation's deficiencies in STEM education are 
making it increasingly difficult to fill vital positions. I look 
forward to hearing from each of you about what you perceive to be the 
problems, and potential solutions, from your unique vantage points. And 
with that, I yield back.

    Chairman Brooks. Thank you, Mr. Lipinski.
    I also want to thank the Space and Rocket Center and Dr. 
von Hart for treating Dan to such a swell visit at the Space 
and Rocket Center. We were also able to get him to jog about 
six or seven miles yesterday on Auburn Street down in South 
Huntsville. He tells me he is not used to the southern heat. We 
have plenty of that this year if you want any up north. A visit 
down to Alabama would not be complete if my wife and I did not 
take him to Greenland Barbecue. So welcome to Greenland. You 
won't get barbecue like that up north.
    Mr. Lipinski. That is some of the best barbecue I have ever 
had. I would just say, I lived in Durham, North Carolina, for 
seven years, so I do know barbecue.
    Chairman Brooks. That having all been said, if there are 
other Members of Congress on the Subcommittee who wish to 
submit additional opening statements, their statements will be 
added to the record at this point.Now I would like to introduce 
the witnesses for today's Research and Science Education 
Subcommittee hearing.
    Our first witness is Dr. Camille H. Wright, who is the 
Director of Secondary Curriculum and Instruction for Madison 
City Schools. Dr. Wright has worked in public education for 
over 28 years, ranging from the classroom to the administrator.
    Our second witness is Dr. Robert A. Altenkirch, the 
President of the University of Alabama in Huntsville. Prior to 
his appointment, he served as President of New Jersey's 
Institute of Technology for nine years, as well as a number of 
other universities and faculty.
    As an aside, I have a little bit of fondness for UAH. My 
wife went there and was Math Student of the Year, after having 
gone to that other university in Tuscaloosa that is better 
known for football, where she got a CPA or accounting degree, 
but also got a math degree and was a math teacher involved in 
the STEM fields, and she was able to do that because of UAH. 
Now my son is there seeking a Master's in the engineering 
school. So please be kind to him, Dr. Altenkirch, if you get 
the chance.
    Our third witness is Dr. Marilyn C. Beck, the President of 
Calhoun Community College. Before coming to Calhoun, where she 
was the first female president, she also served 15 years at 
Lord Fairfax Community College in Virginia, where she was also 
the first female president, and I am sure you are going to 
share with us a lot of interesting things about Calhoun, the 
campus, along with the robotics facility that is right across 
the street. That is a wonderful addition to the Tennessee 
Valley.
    Our fourth witness is Dr. Neil Lamb, the Director of 
Educational Outreach for the HudsonAlpha Institute for Guided 
Technology. Dr. Lamb formerly served as Director of Education 
in the Department of Human Genetics at Emory, and HudsonAlpha 
is a wonderful, different kind of addition to our high-tech 
community. So thank you so much for being here, Mr. Lamb.
    And our final witness is Mr. Andrew Partynski, the Chief 
Technology Officer for the Science Applications International 
Corporation, Assistant in Technology Solutions Business Unit, 
more commonly known as SAIC, their acronym. Prior to SAIC, Mr. 
Partynski worked for DOS Technologies, where he served as 
President for Homeland Security and Defense for the C41 sublet.
    As our witnesses should know, spoken testimony is limited 
to five minutes, after which the Members of the Subcommittee 
will ask questions. I might be a little bit lax on that five-
minute rule. Traditionally in Washington, we are not so lax. So 
please understand there will be a little bit of leeway, but if 
you start acting like United States Senators with a filibuster, 
I might have to shorten things just a little bit to try to get 
it back under control, since we in the House of Commons, as 
opposed to the House of Lords, we tend to be brief. I remember 
my first speech on the House Floor was 120 seconds. But we are 
not demanding that kind of brevity from you.
    With that having been said, I now recognize our first 
witness, Dr. Wright, for five minutes.

              STATEMENT OF DR. CAMILLE H. WRIGHT,

                DIRECTOR OF SECONDARY EDUCATION,

                      MADISON CITY SCHOOLS

    Dr. Wright. Thank you. Chairman Brooks and Ranking Member 
Lipinski, Members of the Subcommittee on Research and Science. 
My name is Camille Wright, Director of Instruction for Madison 
City Schools. Welcome to Bob Jones High School. Thank you for 
inviting me to participate in this important hearing to discuss 
STEM education programs and partnerships in Madison City and 
its importance to the future workforce in Alabama and the U.S. 
economy.
    STEM education is critical to the future of our nation's 
economy. The mastery of STEM subjects is a vital component in 
being able to successfully navigate the 21st century global 
environment. This goes far beyond being a scientist, a 
physician, an architect or an engineer. Understanding the world 
in which we live and how to make critical decisions relies on a 
base in science, engineering, and mathematics. Certainly in our 
technology-driven society, students need to be comfortable 
interacting with and utilizing technology, and their ability to 
secure high-wage, high-demand jobs and maintain those jobs 
depends on this.
    Madison City School System places a strong emphasis on STEM 
education. We are sitting in the Mecca of STEM careers. Eighty-
eight percent of Madison City graduates enroll in post-
secondary. They are more likely to go into a STEM field than 
any other occupation. It is important that we use all our 
available resources in the area to keep our STEM education 
relevant and rigorous.
    Madison City Schools offers a vast array of courses, clubs, 
and after-school activities in the STEM fields. We offer nine 
Advanced Placement courses just in science, technology and 
mathematics. About 35 percent of our students take an advanced 
placement course. We have over 90 percent of our graduates with 
a career and technical education course. Our state-recognized 
Career and Technical Education programs in the STEM fields 
include engineering, biomedical sciences, health science, and 
computer science.
    In most of these career and technical education programs, 
the terminating course includes some type of internship in the 
field. For example, in our Level Three Engineering this year, 
we had about 60 students that interned in businesses such as 
Boeing, Adtran, Aegis, AMTEC, SAIC, Raytheon, HudsonAlpha, 
NASA, and many other companies. In the STEM areas, we have a 
100 percent placement rate at the post-secondary level. 
Additionally, our engineering teacher has received the national 
Milken Award for educational excellence.
    In every elementary and middle school in Madison City that 
is an AMSTIS school or an Alabama Math, Science, and Technology 
Initiative school, we use an integrated philosophy to teaching 
the STEM courses. Research shows that students learn better 
when they think, when they plan, reason, compute, and evaluate 
as a means to solve problems in order to learn the content.
    One of the greatest limitations to high student achievement 
in the STEM areas, though, is the level of knowledge of the 
classroom teacher. Whether it is due to a lack of content 
knowledge, a lack of understanding of real-world application, 
or a lack of knowledge of the available resources, the 
classroom teacher is the key to improving achievement in the 
STEM fields. In fact, in the book Team to Teach, author and 
educator Anne Jolly states that the single most important 
factor in improving student achievement is the classroom 
teacher. If we want to improve K-12 math and science education, 
we have to invest in our educators.
    Alabama has largely adopted the National Common Core 
Standards. We need new resources for our teachers to align to 
the Alabama College and Career Ready Standards. However, this 
year the state legislature will likely fund textbooks at only 
$35 per child, even though an average cost of a textbook is 
about $75. Teacher professional development money has been cut 
as well. This is money that we have used in the past to help 
our teachers become knowledgeable of best practices, current 
research, and the industry standards.
    In order to maintain student interest in math and science, 
we have to show the linkage between the concepts taught in 
school and their application to life. For too long, our 
students have viewed science as just a set of facts that does 
not apply to their daily routines. So connecting to health, to 
food, to their environment is critical to answering their 
question, ``Why do we need to know this?''
    In a Southern Region Educational Board report, ``New Vision 
for the Middle Grades,'' they state, ``Recent evidence makes 
clear that each middle grader's personal, individual engagement 
in school is essential to their success.'' Studies repeatedly 
show that students who lose interest in school in the middle 
grades are likely to flounder in the ninth grade and then drop 
out. Yet developmental and brain research confirms that by the 
middle grades, students are capable of making these connections 
between their academic work, their personal interests, and 
their career aptitudes. Middle-grade professionals can use 
these connections to help students prepare for high school and 
post-secondary studies.
    If we can connect what they are learning in math and 
science and use their natural affinity and love of technology 
to make their learning relevant to their world, we can keep 
students' love of STEM alive throughout their educational 
career. Additionally, they need participation in programs such 
as rocketry and robotics competitions, Destination Imagination 
programs, science fairs that truly focus on scientific 
investigation and have real-world, hands-on learning 
opportunities in the community, much like we are doing with our 
career and technical education programs.
    In order to maintain our current level of excellence, it is 
critical to Madison City to have partnerships with post-
secondary, business and industry, and non-profit organizations. 
We partner with local colleges and universities, those at the 
table, in a multitude of ways. In addition to dual enrollment 
and articulated credit, post-secondary institutions in our area 
provide competitions, they provide transitional outreach, and 
have summer camps in the STEM areas.
    Our partnerships with business and industry are extensive. 
The business community funds a wide variety of programs in our 
schools. They provide guest speakers, job shadowing 
opportunities, and internships that I previously talked about. 
Organizations such as HudsonAlpha offer free professional 
development to our teachers and educational experiences to our 
students.
    We also partner with a number of non-profit organizations 
that provide a wide variety of services, from counseling to 
professional development. One of the most notable is the 
Alabama Best Practice Center. This organization has provided 
hundreds of hours of training, free training, for our district.
    In our global, rapidly changing world, the most important 
gift we can give our students is the understanding of the need 
to be a lifelong learner. Our education doesn't stop once we 
have a diploma in hand. In today's fast-paced world, so many of 
our jobs that our students will hold, we know they don't exist. 
This means that our students must exit high school with the 
ability to think, to collaborate, to make decisions, and to 
innovate, all those skills that they gain in the STEM areas.
    The basic skills are still important, but our students must 
be able to use those skills as a foundation, not as an end 
point. It is important to develop a culture that embraces the 
community of learning from the schools to the family, to 
industry, throughout the community. This is an area of great 
strength for the Huntsville/Madison City/Madison County area, 
and we place a premium on education and lifelong learning.
    Thank you.
    [The prepared statement of Dr. Wright follows:]
    [GRAPHIC] [TIFF OMITTED] 78481.006
    
    [GRAPHIC] [TIFF OMITTED] 78481.007
    
    [GRAPHIC] [TIFF OMITTED] 78481.008
    
    Chairman Brooks. Thank you, Dr. Wright.
    The Chair next recognizes Dr. Altenkirch for five minutes.

             STATEMENT OF DR. ROBERT A. ALTENKIRCH,

          PRESIDENT, UNIVERSITY OF ALABAMA-HUNTSVILLE

    Dr. Altenkirch. Thank you, Congressman. I want to thank the 
Members of the Subcommittee on Research and Science Education 
for this opportunity to address them, for your service, and 
also your interest in our area of STEM education and to see it 
in action.
    The University of Alabama in Huntsville is a top-tier 
national research university as ranked by U.S. News & World 
Report, and we have achieved the highest classification in 
research activity by the standards established by the Carnegie 
Foundation for the Advancement of Teaching. Our campus serves 
as the anchor tenant of Cummings Research Park, the second 
largest university-related research park in the United States, 
with nearly 300 companies and 25,000 employees. Adjacent to 
Cummings Research Park is the Redstone Arsenal, where NASA's 
Marshall Space Flight Center and several U.S. Army laboratories 
and commands are located.
    So it is in this environment that we find ourselves in the 
center of workforce development that is heavily dependent on 
research, technology, science, engineering and mathematics. So 
it is obvious that the success of this community and the 
success of the federal agencies at the Redstone Arsenal in 
addressing their missions, and the success of corporations 
located here to support the Army and NASA are heavily dependent 
on creating a pipeline of intellectual and creative talent in 
the so-called STEM fields.
    Last year our campus supplied the local workforce with more 
than 630 graduates possessing degrees of a technical nature. 
Nearly half of the graduates earned a degree in science or 
engineering. We are the single largest contributor of 
professional degrees for the STEM workforce in the greater 
Huntsville area.
    We recognize the need for our university to provide 
leadership in promoting STEM education and create a pipeline of 
intellectual and creative talent, and we take this 
responsibility seriously. We have made a lot of strides in 
teaching the teachers in STEM education. Our campus was the 
pilot site for the AMSTI program that Dr. Wright mentioned, the 
Alabama Math, Science, and Technology Initiative. A recent 
multi-year study by the U.S. Department of Education credited 
AMSTI with providing the equivalency of an additional 28 days 
of traditional classroom instruction per year.
    AMSTI is a program for elementary and middle school 
teachers, implementing hands-on or inquiry-based learning in 
classrooms. During the past five years, we have trained more 
than 4,000 teachers and have had an impact on more than 120,000 
students. AMSTI schools out-perform non-AMSTI schools in 
middle-grade science, math, and reading significantly. The 
percentile rank difference on the SAT-10 math test between 
schools that adopted AMSTI and a control group increased from 
three percentile points to eight percentile points from Grade 
six to eight, and from three to nine percentile points in 
reading.
    This summer at UAH marks the beginning of a new Master's 
degree in STEM education, the Master of Science in Integrated 
Science Technology, Engineering and Mathematics. This program 
is targeted at in-service secondary school science and math 
educators, seeks to advance their content knowledge and command 
of subject matter, which in turn have been proven to impact 
student learning positively in the STEM areas. It is the only 
program of its nature in Alabama and one of only three in the 
Southeastern United States.
    We are working with local corporations on a middle school 
through high school STEM pipeline aimed at, one, engaging 
students in STEM activities during a two-week summer science 
and engineering camp at the critical time before eighth grade, 
where research shows that interest in STEM disciplines suffers 
a precipitous decline; two, keeping them engaged in STEM 
activities, education and career opportunities throughout the 
academic year; three, sustaining both the summer camp and 
academic year experience in subsequent years through Grade 11, 
and this pipeline culminates with their admission to UAH in a 
STEM major.
    We are also using the Innovative Systems Project for 
increased recruitment of emerging STEM students or InSPIRESS, 
which is an outreach activity that engages high school students 
in an open-ended design activity that piques their interest and 
gives them a better understanding of what scientists and 
engineers do.
    The University of Alabama in Huntsville also provides 
leadership as the regional coordinator for 10 North Alabama 
high schools to better prepare Alabama students for engineering 
careers through the Alabama Engineering Academy Initiative. 
These academies are embedded in high schools and provide 
specific, multi-year curricula geared toward prospective 
engineering students.
    Once they enroll as students on our campus, we prepare our 
engineering students for transition to the workforce by having 
them work in teams to solve large-scale systems problems for 
real-world applications. Also, our cooperative education 
program is one of the largest in the Southeastern United 
States, and partners with scores of local companies and 
government agencies to give experience to students in the 
workforce.
    So each of these steps helps prepare students for a robust 
education at UA-Huntsville and for preparation for their lives 
after being a student, and helps them add value to their 
employer from the first day they walk in the door.
    Thank you very much.
    [The prepared statement of Dr. Altenkirch follows:]
    [GRAPHIC] [TIFF OMITTED] 78481.009
    
    [GRAPHIC] [TIFF OMITTED] 78481.010
    
    [GRAPHIC] [TIFF OMITTED] 78481.011
    
    [GRAPHIC] [TIFF OMITTED] 78481.012
    
    [GRAPHIC] [TIFF OMITTED] 78481.013
    
    [GRAPHIC] [TIFF OMITTED] 78481.014
    
    [GRAPHIC] [TIFF OMITTED] 78481.015
    
    [GRAPHIC] [TIFF OMITTED] 78481.016
    
    Chairman Brooks. Thank you, Dr. Altenkirch.
    Next, the Chair recognizes Dr. Beck for her five minutes.

               STATEMENT OF DR. MARILYN C. BECK,

              PRESIDENT, CALHOUN COMMUNITY COLLEGE

    Dr. Beck. I would like to thank Chairman Brooks and Ranking 
Member Lipinski for inviting me to speak about Calhoun's role 
in STEM education and preparing our graduates for the challenge 
of an ever-increasing high-tech workforce.
    Community colleges play an important role in the U.S. 
economy, and Calhoun is a great example. We have more than 450 
students with declared majors in pre-engineering, science, or 
math, and approximately 4,500 students enrolled in various 
technology programs.
    The College is a member of a post-secondary consortium with 
UA-Huntsville and Alabama A&M University, which allows our 
students to transfer to one of these universities and, upon 
graduation, pursue employment with the Missile Defense Agency 
or other employers that require the same types of knowledge, 
skills, and abilities.
    Calhoun launched the State's first and only associate 
degree programs in biotechnology and clean energy technology. 
Biotechnology majors transfer to four-year institutions or 
immediately enter the workforce as biotechnicians. HudsonAlpha 
partners with Calhoun by providing scholarships for our 
students, as well as internships for those who have completed 
one year in the biotechnology program. Through a $3.4 million 
grant awarded by the U.S. Department of Labor, Calhoun created 
the Alabama Center for Excellence in Clean Energy Technology, 
the first accredited training center for renewable energy 
technicians in Alabama.
    Calhoun offers short-term training certificates, Associate 
of Applied Technologies, and Associate of Science degrees, and 
these classes are offered at the main campus in Decatur and the 
research campus in Huntsville, and also online through a 
significant number of distance education and hybrid courses.
    The College has many established partnerships in our 
Workforce Solutions Department, which works very closely with 
businesses and industries to provide customized, flexible, and 
cost-effective training to businesses and industries. In 
return, the College secures feedback, which keeps our 
technology curriculums on the leading edge.
    Calhoun also works with area non-profits and schools, such 
as Bob Jones High School, and institutions of higher learning. 
The college received a $5 million grant from the U.S. 
Department of Labor. It was referred to as the WIRED program, a 
regional initiative to develop and strengthen partnerships 
throughout North Alabama and South-Central Tennessee. A total 
of 23 counties participated in the project, nine from Tennessee 
and 14 from Alabama, with 16,021 STEM education students 
reached through scholarships and training.
    A current very successful Regional Workforce Development 
Council project is the Career Coaches initiative. Calhoun's 
Career Coaches go out into the middle and high schools and work 
with students to help them determine their educational and 
career goals and to familiarize them with post-secondary 
educational opportunities in the State. Calhoun and the Alabama 
Industrial Development and Training Institute are partners in 
the Alabama Robotics Technology Park Initiative, a one-of-a-
kind, state-of-the-art training, research, development, and 
entrepreneurship park that trains students and incumbent 
workers in the use of robotics technology ranging from 
manufacturing to unmanned air vehicles for space and defense. 
To date, training has been provided for 551 workers and more 
than 1,856 students, and Committee Members have toured the RTP.
    Student retention is a major issue in the Nation. Our 
retention rate is higher than the national average. However, we 
must continue to increase retention by providing students with 
financial aid, tutoring services, open labs, and other forms of 
support.
    Calhoun uses the Statewide Transfer Articulation and 
Reporting System, known as the STARS system, to ensure that 
students follow the correct curriculum for transfer to Alabama 
universities. This system assures the seamless transfer of all 
credits.
    Calhoun prepares students to enter the workforce upon 
completion of their academic program by encouraging and 
offering students the opportunity to take exams for nationally 
recognized industry credentials. In partnership with businesses 
and industry, Calhoun offers apprenticeships and co-op 
opportunities for students.
    Education and training should be affordable for all 
students. As we have all seen in the past few years, the days 
of working for one industry for a lifetime are over. Today's 
workforce must be willing and able to adapt to the changing 
needs of industry. Calhoun is excited to have an active role in 
helping to educate, train, and develop the workforce our region 
needs to successfully compete in the global marketplace.
    [The prepared statement of Dr. Beck follows:]
    [GRAPHIC] [TIFF OMITTED] 78481.017
    
    [GRAPHIC] [TIFF OMITTED] 78481.018
    
    [GRAPHIC] [TIFF OMITTED] 78481.019
    
    [GRAPHIC] [TIFF OMITTED] 78481.020
    
    [GRAPHIC] [TIFF OMITTED] 78481.021
    
    [GRAPHIC] [TIFF OMITTED] 78481.022
    
    [GRAPHIC] [TIFF OMITTED] 78481.023
    
    [GRAPHIC] [TIFF OMITTED] 78481.024
    
    [GRAPHIC] [TIFF OMITTED] 78481.025
    
    [GRAPHIC] [TIFF OMITTED] 78481.026
    
    Chairman Brooks. Thank you, Dr. Beck.
    The Chair next recognizes Dr. Lamb for his five minutes.

                  STATEMENT OF DR. NEIL LAMB,

               DIRECTOR OF EDUCATIONAL OUTREACH,

                     HUDSONALPHA INSTITUTE

    Dr. Lamb. Good morning, Mr. Chairman and Ranking Member 
Lipinski. My name is Neil Lamb, and I am the Educational 
Outreach Director for the HudsonAlpha Institute for 
Biotechnology here in Huntsville, and I am pleased to be before 
the Committee today testifying about ways that non-profit 
organizations can play a role in our nation's STEM education.
    As all of you noted, STEM skills are of vital importance to 
national prosperity, security, and the health of our citizens. 
The United States has long been a leader in scientific 
achievement and in using those discoveries for innovation.
    With fierce competition for information seeking to overtake 
our leadership position, sustained national support of STEM 
education is critical. Industry and non-profit organizations 
have an important supporting role in nurturing budding 
scientists and engineering professionals.
    HudsonAlpha, a not-for-profit research institute, has a 
threefold mission of conducting genomics research, sparking 
economic development, and providing educational outreach.
    HudsonAlpha's research faculty use genomics to understand 
how organisms function at a molecular level in both health and 
disease. This research takes place under the same roof as more 
than 20 biotechnology-related companies, demonstrating our 
belief that proximity between research and industry builds 
collaboration and moves discovery into commercialization at a 
faster pace.
    Part of the attraction to Huntsville is the culture of 
innovation and the emphasis on STEM education. This creates 
those ``aha'' moments that move research forward and turn ideas 
into products.
    Jim Hudson and Lonnie McMillian, the founders of 
HudsonAlpha, each created and matured successful businesses 
here. The opportunity to impact STEM on a broad scale was a 
driving reason why education is a critical component of the 
mission of HudsonAlpha.
    From an educational point of view, our programs are 
organized around preparing the future biotechnology workforce 
and building awareness about the influence of genetics on the 
lives of all citizens. We partner with educators, policymakers, 
corporations and civic groups to connect academic learning with 
real-world application. Our activities are incorporated into 
middle and high school classrooms across the State. We have 
school trips to the Institute during the summer months, and we 
provide summer camps and internship opportunities, as well as 
professional development workshops for teachers.
    In the four years since the opening of the Institute, 
HudsonAlpha has invested more than $2 million into Alabama 
education programs, impacting more than 200,000 students, 
teachers, and members of the public. We are serious about 
improving genetics education and are continually on the lookout 
for ways to translate the scientific discoveries into 
educational experiences.
    That is why HudsonAlpha collaborates with a wide array of 
partners. Some assist in programmatic development and 
implementation, while others provide needed funding. Our 
collaborators include national agencies like the Department of 
Labor and the National Institutes of Health, two- and four-year 
universities and K-12 education systems across Alabama. In 
fact, HudsonAlpha has a relationship with every group providing 
testimony to you at today's meeting.
    If I can go off script for a second, I think the key 
message you will hear from all of those at the table is the 
importance of partnerships in creating networks, each 
supporting each other. None of us is able to function on our 
own in order to be successful for STEM education.
    Whether it is in partnership with statewide programs like 
the Alabama Math, Science, and Technology Initiative, or the 
newly formed Illinois Pathway Initiative, industry and non-
profit organizations across the country have a critical role in 
providing content support and links to student career 
opportunities.
    Based on HudsonAlpha's experience, a few key points have 
emerged that are critical to non-profit success in this area.
    First, we have become familiar with the education scaffold 
across primary, secondary, and higher education. We look for 
those areas that are a natural fit with HudsonAlpha's content 
expertise and identify when the topics are generally taught. 
This is at the middle school, the high school, or not until 
graduate-level training. Knowing when a content area is taught 
allows us to approach the appropriate educational partner.
    Second, we identify ways we can support existing 
educational requirements. This may range from providing guest 
speakers or background material for a classroom discussion to 
creating materials and teacher training for a statewide 
initiative.
    Third, we have to realize that the narrow, highly technical 
details that are HudsonAlpha's area of expertise may not match 
classroom concepts and instead need to focus on a more 
foundational topic within the field. I cannot stress how 
important this point is to success in education in the STEM 
field. Industry and non-profits have great knowledge to share, 
but often attempt to force fit an overly detailed lecture or 
activity into a classroom. This can inadvertently cause more 
harm than good.
    Finally, we have learned that any successful collaboration 
is going to require a serious investment. This may or may not 
be financial in nature, but will almost certainly require an 
investment of time. This relationship must go beyond simply 
writing a check or dropping off surplus equipment.
    A motivated and skilled workforce pipeline requires a solid 
education that continually grows over time. As a society, we 
must support approaches that best facilitate the pursuit of 
this knowledge. Our citizens need to embrace learning, and our 
society needs to reward those who give their time, effort, and 
passion to that pursuit.
    Thank you, Mr. Chairman and Representative Lipinski, for 
the opportunity to appear before you today.
    [The prepared statement of Dr. Lamb follows:]
    [GRAPHIC] [TIFF OMITTED] 78481.027
    
    [GRAPHIC] [TIFF OMITTED] 78481.028
    
    [GRAPHIC] [TIFF OMITTED] 78481.029
    
    [GRAPHIC] [TIFF OMITTED] 78481.030
    
    [GRAPHIC] [TIFF OMITTED] 78481.031
    
    [GRAPHIC] [TIFF OMITTED] 78481.032
    
    [GRAPHIC] [TIFF OMITTED] 78481.033
    
    [GRAPHIC] [TIFF OMITTED] 78481.034
    
    [GRAPHIC] [TIFF OMITTED] 78481.035
    
    Chairman Brooks. Thank you, Dr. Lamb.
    The Chair next recognizes Mr. Partynski.

               STATEMENT OF MR. ANDREW PARTYNSKI,

                   CHIEF TECHNOLOGY OFFICER,

         SCIENCE APPLICATIONS INTERNATIONAL CORPORATION

    Mr. Partynski. Good morning, Chairman Brooks and Member 
Lipinski. Let me first say I am honored to have the opportunity 
to appear before you today, and I would also like to thank Bob 
Jones High School for your wonderful hospitality.
    SAIC is a Fortune 500 scientific, engineering, and 
technology applications company that uses its deep domain 
knowledge to solve problems of vital importance to the Nation 
and the world in national security, energy and environment, 
health and cybersecurity. SAIC employs approximately 41,000 
personnel worldwide, with approximately 10,000 employees with 
advanced degrees and over 20,000 employees with security 
clearances.
    I am the regional coordinator of STEM initiatives in 
Huntsville, and I am also part of a corporate committee that 
focuses on STEM. A major focus of SAIC's STEM program is to 
help provide our employees meaningful opportunities to 
volunteer in their communities. Our employees' actions will 
inspire students directly through their interactions with SAIC, 
will ignite a peer-to-peer spread of interest in volunteering 
within the SAIC employee population, and indirectly can 
stimulate viral student-to-student interest in STEM.
    The current environment in Huntsville when recruiting 
candidates requires that we compete for the same existing 
finite pool of talent. Due to the current growth in Huntsville 
and attendant job opportunities, we have had to recruit and 
relocate qualified people from across the country because of 
the shortages of available and technically skilled engineers. 
The difficulty to recruit these candidates in a timely manner 
has been specifically acknowledged by our customers on Redstone 
Arsenal. Our experience shows that talent of all ages self-
selects into working on big technical problems. The bigger the 
problem, the more inspired and attracted talented people become 
by that challenge.
    To prepare for this current and future need, SAIC has 
initiated several thrusts. First, we have established a 
relationship with UAH by working on creating and tailoring some 
degree programs, bidding on cooperative research projects, 
providing scholarships to identify key talent, and working to 
provide internships at SAIC and ultimately hiring the 
graduates. Our stated goal with UAH is to help it be recognized 
as a national go-to school for the disciplines needed by our 
customers and the Huntsville community.
    We also understand that to inspire our younger generation 
to get into STEM fields, we have to attract them early. To do 
this, SAIC has strategically selected to support FIRST 
robotics, Project Lead the Way, and also Alabama A+ College 
Ready.
    FIRST robotics offers elementary, middle, and high school 
students a series of popular extracurricular activities 
structured around robotics competitions, and includes contests 
at the local, regional, and national levels. Locally we support 
a dozen teams from elementary through high school, and we are 
only one of a dozen SAIC entities that have similar support 
efforts across the country.
    SAIC also selected Project Lead the Way as one of its 
strategic initiatives because the program produces demonstrated 
results, it offers a ready-made infrastructure already present 
in schools and districts across the country, and it offers many 
ways for SAIC employees to engage in their communities.
    As part of SAIC's Project Lead the Way regional strategy, 
we funded the startup of Project Lead the Way engineering 
curriculum at New Century Technology High School.
    We volunteered to co-chair the Tennessee Valley Project 
Lead the Way strategy under ASMDA and NDIA. The goal of this 
joint committee is to gain synergy in supporting all three 
school district superintendents that are piloting Project Lead 
the Way in a high school.
    SAIC volunteers are working to create an environment where 
best practices for deploying the curriculum can be shared 
across all three school systems. They are also creating a one-
stop-shop capability to support the needs of Project Lead the 
Way teachers, including finding sponsors to fund courses, 
recruit and place mentors for the classroom, and set up 
industry and government internships for students to explore 
STEM career fields. The strategy focuses on providing these 
Project Lead the Way support services for high schools first, 
but will expand to support K-8 schools in the coming years.
    SAIC coordinated and deployed a 10-week cyber curriculum 
called CyberNEXS to eight schools in the Huntsville City school 
district. SAIC organized mentors both within SAIC and external 
to work with the eight schools in Huntsville, and two of the 
schools that went through this cyber training have qualified 
through two levels of National Cyber Patriot competitions run 
by the Air Force Association.
    SAIC also worked with Project Lead the Way to develop 
technologies for the upcoming cyber curriculum. Huntsville's 
Grissom High School was chosen as one of two schools nationally 
to pilot this new cyber security curriculum at the high school 
level.
    SAIC also contributes to Alabama's A+ College Ready as part 
of a $1 million commitment by the community in Huntsville and 
Madison County to implement AP programs in 10 local high 
schools, making this an exemplary public-private partnership. 
After just one year in the A+ College Ready program, 43 Alabama 
high schools showed an average 108 percent increase in AP 
qualifying scores, 13 times the national average of 8.1 
percent. Alabama's percentage increase in qualifying scores on 
AP exams from 2008 to 2011 ranks Alabama number one among all 
50 States in qualifying scores on exams and minority qualifying 
scores on exams.
    In closing, one of the greatest challenges for any company 
in the technical fields today is finding and attracting top 
talent in all technical areas. Our greatest method of 
attraction is inspiration in the mission and to the 
contribution to our Nation and society.
    Our government was able to achieve this rallying vision 
under President Kennedy when he announced the national 
challenge to go to the moon. This vision created the largest 
increase in enrollment in STEM fields in U.S. history. Today we 
need an equally visionary challenge that inspires the 
imagination and passion of our young people. This challenge 
needs to go beyond typical rhetoric and stimulus and strike at 
the hearts and minds of the generation that uses technology 
transparently and can multiplex many activities at once. Once 
inspired, this generation, these young people, will rise to the 
challenge with passion and innovation that will make us proud 
to be Americans.
    Thank you.
    [The prepared statement of Mr. Partynski follows:]
    [GRAPHIC] [TIFF OMITTED] 78481.036
    
    [GRAPHIC] [TIFF OMITTED] 78481.037
    
    [GRAPHIC] [TIFF OMITTED] 78481.038
    
    [GRAPHIC] [TIFF OMITTED] 78481.039
    
    [GRAPHIC] [TIFF OMITTED] 78481.040
    
    [GRAPHIC] [TIFF OMITTED] 78481.041
    
    [GRAPHIC] [TIFF OMITTED] 78481.042
    
    [GRAPHIC] [TIFF OMITTED] 78481.043
    
    [GRAPHIC] [TIFF OMITTED] 78481.044
    
    [GRAPHIC] [TIFF OMITTED] 78481.045
    
    Chairman Brooks. Thank you, Mr. Partynski.
    I want to thank all the witnesses.
    The Chair at this point will open the round of questions. 
Typically our questions on the Hill are limited to five 
minutes, but the Chair is going to exercise the Chair's 
prerogative and grant additional leeway with respect to our 
timing.
    The Chair recognizes himself for his questions. The first 
question I have is for Mr. Partynski, and Dr. Lamb, if you also 
will respond after Mr. Partynski has done so.
    In order to produce a competent STEM workforce for the 
future, communications between universities and industry are 
imperative. How does industry communicate its workforce needs 
to the education community, and how would you grade industry's 
efforts in communicating to universities their workforce needs, 
both current and future?
    Mr. Partynski. Well, first of all, we find that in order 
for us to communicate our needs with universities, we have to 
form partnerships with universities. We have to work 
collaboratively, as we have attempted to do with our strategic 
university alliance. We have actually formed seven university 
alliances across the Nation. One of them is with UAH. And those 
alliances allow us not only to focus our investments at 
universities but also focus our needs.
    For example, we work with universities to develop specific 
curricula so that they can actually fill the requirements that 
we see today and forecast for the future. So they are 
critically important.
    As far as having the university work with us to produce 
these candidates, we actually go to the universities and we 
recruit. We actually provide scholarships to identify students 
that have what we consider critical thinking, and we actually 
provide the university with funding to accelerate some of those 
efforts.
    Chairman Brooks. How would you grade industry's 
communication skills, inasmuch as universities and community 
colleges, K-12, they all want to educate kids in such a fashion 
so that once they are graduated, they will be market ready, 
they can get a job? How would you grade industry's ability to 
communicate the high-tech needs to K-12, community colleges and 
universities?
    Mr. Partynski. I think our communication still requires a 
lot of work. It is not adequate where we are today. What we are 
finding is that there is a balance between communication of 
needs and having a skilled and experienced workforce, 
especially in Huntsville. One of the areas that we are working 
with the university on is to provide internships and summer job 
programs to get the students, their experience base up a little 
higher, because the customer base in Huntsville requires 
primarily experienced people that they want to hire as opposed 
to direct college graduates.
    So we still have a lot of work to do to work with 
universities to actually communicate needs and what type of 
students we need.
    Chairman Brooks. Dr. Lamb, you are sitting in a little bit 
of a different chair because of the hybrid nature of 
HudsonAlpha, on the one hand research and innovation, and on 
the other hand you partner with industry. So how would you 
answer those questions?
    Dr. Lamb. I would say that we have to do a better job 
directly communicating with our education network, whether that 
is K-12 or our two-year or four-year schools. We historically, 
at least in our field, have ended up with an enormous number of 
students who have been told that in order to go into research, 
into the health sciences, that you have to have an advanced 
degree. I think that we have a number of students that have 
come out with a Bachelor's, Master's, or Ph.D., and the field 
has changed so that it doesn't necessarily support that.
    There are an ever-increasing number of positions that are 
available at the sub-baccalaureate level, and we have to have 
better communication with our education partners to help them 
understand that and to recognize the skill set that we are 
looking for, that it isn't simply individuals that know a great 
deal of book-based facts but also have hands-on skills.
    I think here in Huntsville you have seen more of those 
direct connections, more of the intern programs that Mr. 
Partynski talked about, more of those hands-on opportunities 
building skills as well as knowledge. But I think historically 
it has been a challenge, and there hasn't been the needed 
communication between the bioscience industry and our education 
partners.
    Chairman Brooks. Thank you.
    The next question will be for Dr. Wright, Dr. Altenkirch, 
and Dr. Beck, the flip side of the first question.
    There is nothing worse for a young person to have a high 
school diploma or the two-year degree or the four-year degree, 
or even advanced degrees, yet not be able to get a job because 
the education doesn't match the science, technology, 
engineering and math requirements of industry. In that vein, do 
you seek industry input when developing curriculums for your 
students, and do they in turn assist with the academic-to-
workforce transitions? If so, how?
    And you can--whoever wants to answer first, go for it. Dr. 
Wright? Or is it going to be Dr. Beck? All I saw was Dr. 
Altenkirch shift the mic.
    [Laughter.]
    Chairman Brooks. Who wishes to go first?
    Dr. Beck. At Calhoun Community College, we have good 
partnerships with business and industry, and we have advisory 
committees, and the membership on those committees is provided 
by businesses and industries in this region. So they work with 
us to ensure that our curriculums do match the needs of the 
business and industry in this region.
    Also, another way that we are served is by co-op and 
internship positions of businesses and industries throughout 
the region.
    I do think that certainly we are making headway and 
ensuring our students have the appropriate skills for the jobs 
in this workforce, and really I believe Dr. Wright said this is 
a Mecca. It is a Mecca for jobs, from here to many areas of our 
Nation.
    So we are endeavoring every day to reach out to business 
and industry and to involve business and industry in helping us 
ensure our curriculums are leading edge.
    Chairman Brooks. Thank you, Dr. Beck. I have seen some of 
that firsthand over at your Limestone County campus.
    Dr. Wright, are you going to take the next stab at it?
    Dr. Wright. Sure.
    Chairman Brooks. All right. Thank you.
    Dr. Wright. Additionally at the K-12 level, we do try to 
establish numerous partnerships with business and industry for 
advisement. So we have an advisory council for career and 
technical education that is about 12 members, and we meet 
regularly, and they advise on the new directions for career and 
technical education, how to really make that--put the edge to 
the academic so that we have that hands-on experience in the 
learning.
    We have those internships with all of our career tech 
programs, but we also have a lot of community outreach with the 
businesses in all of our programs. For example, the 
Homebuilders Association may partner with our engineering or 
one of our other classes to help them build a sign for Bob 
Jones Hospital, things that are really that practical, hands-on 
application.
    I think we do a better job here than maybe is happening 
across the State. I know that Dr. Bise, the state 
superintendent, has just hired a new director for career and 
technical education whose job is outreach also with post-
secondary and workforce development. But we are trying to get 
more involved with workforce development councils, and then we 
have articulated credit with the post-secondary institutions, 
and all of that comes directly from the business and industry 
advisement.
    Chairman Brooks. Thank you, Dr. Wright.
    Dr. Altenkirch, you are in a little bit of a different 
situation, inasmuch as UAH is the brainchild of Wernher von 
Braun, Marshall Space Flight Center, NASA, national defense 
needs and industry needs--if my memory serves me correctly, 
back in the early '60s. So UAH was born in response to industry 
needs.
    But today, what is UAH doing to try to ensure that there is 
this flow of communication that enhances UAH's ability of 
producing graduates with the knowledge that our workforce 
needs?
    Dr. Altenkirch. Thank you. I wasn't trying to avoid the 
question. I just wanted to demonstrate that chivalry is alive 
and well.
    [Laughter.]
    Chairman Brooks. Ladies first. I understand.
    Dr. Altenkirch. It is a good point. Let me step back and 
give a little bit of a broad perspective on this, and that is 
that in college curricula, they are compartmentalized. You have 
to divide things up in some way. And so we teach mathematics, 
we teach chemistry, we teach mechanical engineering, et cetera. 
But at some point, all those have to be integrated, because 
they are not separated when you go out into an industrial 
environment.
    And so our communication is a lot, if you listened to the 
testimony carefully, is to interact with industry and the 
Arsenal and NASA through summer camps, through integrated 
projects, teams of people from all across the technical 
disciplines, and high school students that are integrated into 
those teams, and also students from other universities are 
integrated into those teams.
    So by taking the compartmentalized university instruction 
and then eventually integrating it together so that people 
don't believe that these things are all separate. So if you 
study mathematics, you don't necessarily at the Bachelor's 
level go out in industry and do mathematics. You do right-
scaled projects in which you use mathematics.
    So that has to happen at some point along the educational 
process. We think these interactions with industry and 
internships, these design projects, et cetera, are a very good 
way to communicate that importance.
    Chairman Brooks. Thank you, Dr. Altenkirch.
    The Chair is going to exercise his prerogative to have a 
second round of questions for both Mr. Lipinski and myself. But 
at this point, I am going to defer to Mr. Lipinski from the 
great State of Illinois for questions that he may have.
    Mr. Lipinski. Thank you, Chairman Brooks.
    I sometimes have--this is an area that is of great interest 
to me, and I also have to admit that I have two degrees in 
engineering. I left the STEM fields. I had one colleague of 
mine say during a hearing once that I went to the dark side. I 
got a Ph.D. in political science.
    Chairman Brooks. But it was from a good university.
    Mr. Lipinski. Yes, Duke University. I think that is a 
pretty good university.
    But as we are going through this, my mind is going in a 
million different directions. Let me see if I can narrow this 
down to a few specific questions.
    I want to start with Dr. Lamb. Is there anything--and I am 
not suggesting--I am not just playing the role of the Democrat 
here and suggesting that the Federal Government does 
everything, but what we are here about is what we do in 
Congress, what can the Federal Government do.
    So first, what can the Federal Government do, if anything, 
to promote more entities like the HudsonAlpha Institute? Is 
there anything that can be done to promote such entities?
    Dr. Lamb. Aside from providing financial incentives for 
groups to enter into this field?
    Mr. Lipinski. Whatever you --
    Dr. Lamb. So let me start by commenting on what you just 
said about your own personal history, about starting with a 
STEM field and then moving out. There is a recent study by 
Georgetown University that notes that there is this big 
discussion that we are losing individuals in the STEM arena, we 
don't have enough STEM workers. The Georgetown study noted that 
we actually start out with enough STEM workers, but they are 
pushed away to other fields because our STEM students display 
the important skills that other industries and other companies 
need. So I would posit that your STEM background actually 
provided you a great foundation for moving over.
    Mr. Lipinski. I like to state that all the time. I think 
that we have less than 10 engineers in Congress, and we could 
use a lot more. I won't say anything about what we could use a 
lot less of, but there are over 250 attorneys.
    [Laughter.]
    Chairman Brooks. Would it help that my father and two sons 
are engineers? Do I get some credit for that?
    Mr. Lipinski. Yes, you get a lot of credit for that.
    Dr. Lamb. That is right. Those who grow up in STEM 
households, I think you also imbibe that as well.
    I think that one of the most important ways--and this is 
true for industry as well. One of the most important roles for 
industry and non-profit is recognizing that they are content 
experts and that they have a very important role to play in 
informing education, linking what students are learning with 
real-world applications.
    Mr. Lipinski. Let me roll into my next question. Is there 
anything the Federal Government can do to encourage the 
collaboration you talked about? This is something that I have 
always emphasized and I never see enough of. I was teaching 
political science, and I did not see universities doing enough 
to interact with industry. I don't see enough of--and it seems 
that this is coming on a little bit more, but we have the 
Department of Energy, national labs, a couple in the Chicago 
area, the universities. I always encourage them to collaborate, 
taking the research that is being done, industry taking that, 
creating products, jobs. That is our future. But also 
collaboration with all levels of education and industry, the 
Federal Government, whether it is the energy labs or NASA. I 
know NASA does a lot of work on this, but more needs to be 
done.
    So what can be done to entice and encourage, incentivize 
this type of cooperation? I think this is something that 
everyone probably may have an answer to.
    Dr. Lamb. I think that there should be requirements in 
funding opportunities when groups write funding proposals. 
There should be requirements to make sure that industry and 
education are at the same table, and I think those can be 
funding requirements for education-related grants as well as 
things like small business grants, that there is a connection 
to education.
    But I think you have to be very specific. This needs to be 
more than simply having them at the same table, having someone 
write on a proposal, ``Yes, I have this advisory committee, and 
look, it involves people from industry and it involves people 
from education.'' We need to spell out what these partnerships 
potentially can look like.
    These are not easy to develop. They do not naturally flow. 
We often speak different languages. We often come with 
different perspectives. People in industry and non-profit 
generally do not have any sense of the challenges from the 
world of education. It is a different language. It is a 
different set of backgrounds. And it takes time. It takes much 
more time than simply showing up at a quarterly meeting where 
we all have a boxed lunch and we nod at each other.
    I am not sure how you actually try to knit these groups 
together, but there needs to be a better expectation of what 
these partnerships potentially can look like. They can be 
incredibly fulfilling, and once you begin to build them, then 
other ideas and projects flow naturally out of them, and it 
becomes very engaging and encouraging on both ends.
    But it is not always easy to get them to the table and to 
get them on the same page.
    Mr. Lipinski. Anyone else have anything they can add about 
how we can encourage the collaboration?
    Dr. Wright. Well, you asked about what the Federal 
Government could do, and I would like to emphasize that if we 
had a decreased focus on accountability--for example, with No 
Child Left Behind, there has been such a focus on the reading 
and math, and even though it is probably an unintended 
consequence, it causes us to put our resources in areas that 
are singularly focused, as opposed to broad-based programs that 
really do integrate and apply the knowledge that we are 
learning.
    So when there is legislation that causes that kind of 
singular focus, I think that is something that we need to take 
a look at and try to--whatever the legislation is, that is what 
we are going to do. So as an unintended consequence, that is 
where the money is going to go. So if we can put our money--if 
we can have federal legislation that really focuses on the 
integration of the academic, as opposed to a singular focus of 
passing some level of reading.
    Dr. Lamb. And if I could add, I think in adding to Dr. 
Wright's point, AYP has intentionally put the focus on math and 
reading to the exclusion of science. So in many of our schools, 
science has been shifted off to the side or is used as a way to 
teach, to remediate in math and reading, with very little 
science focus, and I think that has done enormous harm to how 
we look at science and how we teach science in our schools 
across the country.
    Mr. Lipinski. If I could go on to another question here, I 
am always looking to the Chairman as to when he is going to 
pull the plug on this round, but let do one more question.
    Dr. Beck, how many of the students who receive Associates 
degrees, what will they do with Associates degrees in these 
STEM fields? How many of them will go into--can get a job with 
that in a STEM field? How many go on to a four-year degree--
finish up and go on to a Bachelor's degree? What are you seeing 
in that regard?
    Because the big question that came up, and I probably 
shouldn't attach it to another one, but I think we have to look 
at the whole breadth here. The question is, what do students 
need to learn? And there are different types of jobs. That was 
brought up. There are different types of jobs that you have. 
There are some STEM jobs that you just need an Associate's 
degree for, there are some STEM jobs you need a Ph.D. for, and 
there is a real--it depends. Not everyone is--we are not 
teaching STEM, just the way one goes to get a Ph.D. in STEM. 
That is not what we want, that is not what we need.
    But how many of them, how many students--and has there been 
an increase in the number of students who get an Associate's 
degree in a STEM field that can step right in? Are there more 
jobs available for them or not?
    Dr. Beck. At Calhoun, about a third of our students are 
coming to the college to upgrade skills or to re-skill. About a 
third of the students are seeking an Associate's degree in a 
variety of fields with the intent to go into the labor force. 
The other third are transfer students. They intend to transfer 
to the college and universities.
    We find that our students who are in the health careers and 
the technology careers that involve STEM fields get jobs in our 
community. In fact, one of the issues we have is that some of 
the students who are really good students and who acquire 
technical skills may opt out for a job before they complete 
their Associate degree. So we are working very hard to keep 
them associated with the college even though they have gone to 
work so that they will complete their Associate degree.
    Our students in the transfer curriculums, when they 
transfer we get data from UA-Huntsville and other universities. 
They do as well or better when they transfer as the native 
students do at the university. So they are pretty well 
prepared.
    Our two-year degree students, as I said, in the STEM areas 
are almost 100 percent placement. If they just stop out after 
they have completed two years of a possible Gen Ed or transfer 
curriculum, they have challenges in the job market. They have a 
two-year degree but their skills don't enable them to compete 
as effectively in this workforce. But our students that are in 
that upper third do go on to the universities at a high rate, 
and they do pursue Master's and Doctor's degrees in the various 
STEM and other fields.
    Mr. Lipinski. Thank you.
    Chairman Brooks. As you are probably aware, our youth have 
faced significant challenges with the unemployment rate, and 
for folks who are in their upper teens or low 20s, there is a 
very significant disparity between their unemployment rate and 
the rest of the Nation as a whole, and this is for any witness 
who may want to address this.
    Can you explain to the best of your ability why many 
students graduate in STEM fields and yet still are unable to 
find jobs, even though the United States is a leader in science 
and technology, and efforts to educate our students in STEM 
fields are well underway? Would you attribute this to our 
Nation's current economic conditions or to an actual lack of 
STEM opportunities?
    Mr. Partynski. I will take a stab at that, since industry 
does most of the hiring for STEM-educated students.
    I believe a major factor currently is the economy. There 
are periods in our history where we can't graduate enough STEM 
students. I remember that when I graduated, I had 12 job offers 
before I finished school. I have a son who is going to graduate 
this year, and he doesn't have any job offers yet.
    The challenge that I am learning is really a problem is 
education alone today isn't enough. Experience is necessary. So 
co-ops, internships, some level of experience in the field that 
they are interested in is critical. So that is the challenge. 
The economy is the driver, and the desire today is to have 
people with some level of experience.
    Chairman Brooks. While I have you, Mr. Partynski, do you 
have a judgment as to whether those individuals who graduate in 
the STEM fields are doing any better or worse than community 
and university graduates who have degrees in non-STEM fields?
    Mr. Partynski. Unfortunately, I can't answer for non-STEM 
fields since our primary focus is in the sciences. But my 
opinion is that the challenge is even larger for those that 
aren't graduating in the STEM fields, again owing to the 
economy.
    Chairman Brooks. And perhaps one of the folks who are in 
higher ed can address that to a greater degree. But 
notwithstanding, would any of you all be in a position to 
respond to either the first question or the follow-up?
    Dr. Altenkirch. I don't suspect that the jobless rate among 
graduates in the STEM fields is greater than the average. I 
would suspect that it is less because of the fact that if you 
are prepared in those subject areas, you are able to do those 
subject areas, but you are also able to do a lot more. So you 
are educated in problem-solving, whereas if you opted out of 
those fields, I think your opportunities are limited. 
Congressman Lipinski was well prepared to get a Ph.D. in 
political science.
    So I think my point is that the engineering and mathematics 
and science fields are really broad based and allow you to do a 
lot of things. I don't think that the graduates should limit 
their horizons to ``if I get an engineering degree, I have to 
do engineering.'' I think it is much more open than that.
    Chairman Brooks. Dr. Wright, Dr. Beck or Dr. Lamb, do you 
all have any insight you wish to share on either the first or 
the second question?
    Dr. Wright. We find it--we have limited data, but we find 
it quite interesting that our students at Bob Jones, we have 88 
percent that go to college, and of that 88 percent we have 
about 56 percent who actually get a four-year degree in five 
years. You see on the news the high cost of student loans.
    So we have seen, in the limited amount of time that we have 
had these career tech programs in the STEM fields, that 
students who do the level three or level four internship--so if 
you have a biomedical student in year four that is doing those 
internships in different areas, or the engineering student who 
is out at SAIC seeing what the opportunities are, they are much 
more likely to go to college and finish a four-year degree in 
four years or five years than their counterpart who hasn't done 
that.
    So again, it is limited data, but we really feel like those 
students who have an opportunity to have hands-on application 
of the learning are much more prepared and are going through 
college at a faster rate because they know what they want to 
do, because they have seen all those opportunities out there. 
So we feel like that has been a strong point here.
    Chairman Brooks. Dr. Beck or Dr. Lamb, do you have anything 
you wish to add?
    Dr. Lamb. The Georgetown study that I mentioned earlier has 
actually found that there is a lower unemployment rate for 
individuals that are STEM graduates, in part because they tend 
to be poached by other industries based on the skill sets that 
they have developed that translate so well.
    We run a summer intern program at HudsonAlpha. We bring 
about 30 interns in at the high school and undergraduate level 
from across the state, and we have over 300 applicants 
routinely for these 30 positions. The words that we hear over 
and over are ``I have to have hands-on experience to make me 
more attractive as a job candidate.'' So I think that that is 
what separates many of these students from who rises to the top 
of the stack, who has hands-on experience, and I think we have 
to do a better job of providing more of those real-world 
opportunities for our students.
    Chairman Brooks. Mr. Partynski, I have your written remarks 
which, as is normally the case, differ from your oral remarks 
because of time limitations, and I am going to read from a part 
of it. It says, ``The 2010 American Community Survey performed 
by the Census confirms that the Huntsville metro area has the 
highest per capita concentration of engineers in the country, 
with 11,392 engineers making up six percent of the total 
employed residents. San Jose/Sunnyvale/Santa Clara is second at 
5.1 percent.'' So we are at 6, they are at 5.1.
    SAIC is in somewhat of an interesting position because you 
are in business, of course, to make a profit for the owners of 
the business. That is what free enterprise and capitalism is 
all about. Nonetheless, you all seem to be diverting some of 
your profits or resources to STEM efforts.
    Can you share with us what the cost is to SAIC of engaging 
in STEM efforts that, at least on the surface, have no apparent 
direct profit motive to SAIC? And then finally, why does SAIC 
do it? What is the benefit?
    Mr. Partynski. Well, it will be hard for me to give you an 
exact number of what our investment is. I can give you one 
example. We nationally sponsored Project Lead the Way and First 
Robotics at $1 million, and that is just because of our 
interest in that area.
    What was the second part of your question?
    Chairman Brooks. What is the benefit to SAIC? What is the 
motivation for you to invest this money that you do not get a 
direct return on?
    Mr. Partynski. Well, actually, it is an investment in the 
future. The motivation is to actually stimulate the growth of a 
segment of our market that we see need in the future. We cannot 
graduate enough U.S. citizens with advanced degrees to fill the 
needs that we are projecting for national security in the 
future. So we have a long-term vision on the needs of what this 
nation needs to provide, and we see a shortage. Therefore, we 
are investing in our own future.
    Chairman Brooks. And is SAIC, in your experience, alone in 
this endeavor, or do your competitors also participate, as SAIC 
does, in this investment in STEM education?
    Mr. Partynski. Well, from the folks that I have talked to, 
it is a communitywide effort. It is not a single company. All 
the companies, at least in the Huntsville area, are 
contributing, are doing STEM initiatives of their own in a very 
big way. As a matter of fact, in answer to Congressman 
Lipinski's question earlier, what can the government do, as a 
matter of fact we are showing kind of a dichotomy here. We are 
saying that STEM is important, the government wants to promote 
STEM, but yet the government has cut back on all R&D spending.
    If you think about where a lot of the STEM workforce goes, 
it is into R&D. So one of the things the government can do 
maybe is to relook at the cuts in research and development 
spending across the board.
    One of the biggest challenges in research and development 
is that it is research. It isn't a product development. When 
you do research, you can't be penalized for failure. As a 
matter of fact, you may find success in finding a way to show 
how not to do something as opposed to always showing that this 
is how you do it.
    So there needs to be a different thought process in how we 
perceive research and development, how we account for the 
results of research and development, and the amount of funding 
that we are providing for it, because that is what drives the 
entire technical market.
    Chairman Brooks. Thank you, Mr. Partynski.
    At this time, the Chair will defer to Mr. Lipinski for the 
final set of questions.
    Mr. Lipinski. Thank you. I want to thank Mr. Partynski, 
first of all, for emphasizing the importance of federal funding 
for R&D. I think that is very critical for the future of our 
country. I also want to thank you and SAIC for what you do, and 
that is part of we are fortunate that we do have private 
industry, we do have non-profits who are willing to make that 
investment, because it is obviously not going to all come from 
government. It shouldn't come all from government. But it is a 
special role that you play in doing that, in helping our 
nation.
    It is funny that the Chairman just read off that paragraph 
from Mr. Partynski's written statement. I had circled that 
earlier on. I was going to say that is why I felt so welcomed 
here in Huntsville, is all of the engineers. Seeing as it is 
the highest per capita engineers, I now completely understand 
that.
    I want to ask--well, let me say this before I ask my one 
final question. I want to thank Chairman Brooks. I want to 
thank Mo and his wife, Martha, for their hospitality here. My 
wife, Judy, and I very much enjoyed our time here, not just 
because it was 30 degrees warmer here than in Chicago right 
now, but very much enjoyed, had a good time down here, and I 
look forward to coming back to visit.
    I had questioned--I have been to 45 or 46 states, and I was 
never sure if I could count Alabama. I drove through a corner 
of Alabama once. I don't think I ever set foot in the State 
before. But I will be back here, and I want to thank everyone 
here, and our witnesses, for being here today.
    My last question is the importance of K-12 educators in 
STEM certainly has been emphasized, so what can we do to have 
better--to reward the good STEM educators, to encourage more 
good people to come in and be STEM educators in K-12? I mean, 
that is a big question that we have out here. What really can 
we do to make that possible?
    I think Dr. Wright may want to start, and then we will hear 
what anyone else has to say on that.
    Mr. Partynski. Well, I will start because I don't have a 
vested interest in education because I am in industry, but we 
all have a vested interest in education as a Nation.
    The challenge I see for educators is continuously shrinking 
budgets. One of the things that I find perplexing is we have 
mandated requirements without funding which drives educational 
institutions to cut programs, to cut things that they used to 
do in teaching in order to meet those requirements.
    And so again, it boils down to available funding, and I 
think most educational institutions and communities are 
underfunded at this point. I think if we provided them adequate 
funding, they would really excel at what they do.
    Dr. Wright. Hear, hear.
    I think the other issue is you have got to attract good 
people, but then once you have good people, you have got to 
sustain their training. So we have great teachers on staff, but 
we need the funding for current technology so that they can 
integrate the current technology and stay abreast of what has 
happened, and that is the biggest challenge that we have, is we 
want them in the classroom teaching, but how do we keep them 
trained in current technologies and industry standards.
    So partnering with business and industry for our teachers' 
sake so that they can get into business and industry and find 
out what industry standards are is a real need because I think, 
again, we need to invest in those people that we currently 
have, in addition to attracting others. We have a bright, 
bright teaching force here in Madison City, but there is still 
that constant problem of how do you keep them current, how do 
you keep them current.
    So repositories of information that they can go to to 
learn, which could be developed at the federal level or the 
State level, and then obviously the money to be able to help 
them with their training. Online and Web resources are so great 
now, but finding enough time and giving them opportunities to 
do that is a challenge.
    So I think we have got to train and retrain the people that 
we do have, in addition to attracting the new folks.
    Dr. Altenkirch. I think, too, on the training or education 
side, it is important to realize that if you are going to teach 
a subject, you have to know where it is going to lead you. So, 
for example, for people who teach algebra, they have to know 
much more than algebra because they have to know where algebra 
is going to take you. Algebra is not an end in and of itself. I 
am not convinced that all of the STEM teachers in the classroom 
have that sort of perspective or that education or training 
that is beyond what they are teaching, and I think that is very 
important. Otherwise, everything seems so compartmentalized and 
so much of an end in and of itself that you can't see the big 
picture, and working in industry, you have to be able to 
integrate all these things on large-scale projects.
    Mr. Lipinski. Anyone else? Dr. Beck?
    Dr. Beck. I personally went to school in mathematics from 
the baccalaureate degree to the doctorate with scholarships, 
and had it not been for those programs at that time, which is 
post-Sputnik, I probably wouldn't have been able to complete 
those degrees.
    So I say that to say that we really do need scholarship 
money for STEM students. We have a grant right now at the 
college, a $450,000 grant for four years, but we could probably 
use three times that much to recruit the good students into the 
STEM fields. The good students can choose any field because 
they are capable, but the scholarship funds will influence them 
and encourage them into the STEM fields.
    Then beyond that, the graduate scholarships to train 
teachers to teach mathematics so that they indeed do have 
training well above the skills that they are teaching in the 
high schools. And then second, the information about 
professional development. Even after they are trained and get 
their degrees, they must continue to be updated in their fields 
to be fine teachers.
    Dr. Lamb. Just to round out the panel, I think we have to 
find ways to reduce the barriers between individuals in 
industry who are into education and individuals in education to 
understand the concepts from industry.
    So you have heard bits and pieces of that already. We want 
to recruit individuals from our STEM industries to come into 
the classroom, but we put an enormous number of educational 
barriers in front of them. Certainly I am not saying that you 
should be able to take someone straight out of industry and 
plop them right in the middle of a classroom, but there are a 
number of incredible challenges, both financial and in terms of 
their time and their required course work, that right now stand 
in their way that cause many of them to pause before they 
decide they want to go into education.
    And on the flip side, I think we have to find ways for 
industry and for non-profits to learn to package information 
about real-world applications in ways that classroom teachers 
can grasp them, so that the algebra teacher understands how 
algebra gets used in a host of other ways, and so that the 
biology teacher who got his or her degree 20 years ago is able 
to be updated on all the new discoveries and how this is 
important and how this links back to the careers.
    It is about reducing the boundaries and about increasing 
the communication between both sides of that equation.
    Mr. Lipinski. Thank you. I thank all our witnesses here 
today, and I also just want to--I should have said this at the 
beginning, but I think this shows that there are critical 
issues that are facing our country, and I believe we need to 
work together, and we showed here today we are Democrat and 
Republican, we are not fighting, we are working together, and I 
want to thank Mo Brooks for, as he took this position as Chair 
of the Subcommittee, being willing to do that, and it is a 
pleasure to work with him as we work together to try to solve, 
do what we can to try to solve some of these big problems.
    Chairman Brooks. I would like to thank all the witnesses 
for your valuable testimony and insight, and Congressman 
Lipinski for his participation and questions. I would also like 
to thank Bob Jones High School and the City of Madison for 
being such wonderful hosts for this Congressional hearing in 
the Fifth Congressional District of Alabama, which could very 
well be one of the first, if not the first, in the Tennessee 
Valley, certainly the first in the City of Madison.
    I also want to thank our Committee staff and my 
Congressional staff. They had some hard choices to make, as you 
can see from this panel, some excellent individuals. We have an 
abundance of talent in the Tennessee Valley that we could have 
selected here in order to glean the insight and expertise. 
There are so many different folks. It could have been people 
from NASA and the Marshall Space Flight Center, any of our 
national defense commands, any other entities that are in the 
private sector. It could have been the Space and Rocket Center, 
Side Quest, non-profits, you name it.
    But the panel that we have representing K-12 and the 
community colleges and higher institutions, four-year colleges 
on the one hand, industry and then hybrid research and industry 
on the other, I think that was a good combination, given the 
issues that we face with STEM nationally and what we have to do 
to make sure that America continues to be number one in STEM 
education, which, in turn, has made us number one in 
exceptionalism.
    The Members of the Subcommittee may have additional 
questions for any one of you, and we will ask you to respond to 
those in writing, not just the two that came but others who are 
on the Committee. The record will remain open for two weeks for 
additional comments from the Members.
    Chairman Brooks. The witnesses are excused, and this 
hearing is adjourned.
    [Whereupon, at 11:50 a.m., the Subcommittee was adjourned.]

                   Answers to Post-Hearing Questions


<SKIP PAGES = 000>

                   Answers to Post-Hearing Questions
[GRAPHIC] [TIFF OMITTED] 78481.046

[GRAPHIC] [TIFF OMITTED] 78481.047

[GRAPHIC] [TIFF OMITTED] 78481.048

[GRAPHIC] [TIFF OMITTED] 78481.049

[GRAPHIC] [TIFF OMITTED] 78481.050

[GRAPHIC] [TIFF OMITTED] 78481.051

[GRAPHIC] [TIFF OMITTED] 78481.052

[GRAPHIC] [TIFF OMITTED] 78481.053


                                   

</pre></body></html>
